       EVALUATION OF THE
     DEPARTMENT OF LABOR’S
   FLEET MANAGEMENT PROGRAM




 OFFICE OF THE ASSISTANT SECRETARY
FOR ADMINISTRATION AND MANAGEMENT




                   REPORT NUMBER: 2E-07-711-0001
                   DATE ISSUED: March 4, 2002
                                             TABLE OF CONTENTS




ACRONYMS ................................................................................................................................. ii


EXECUTIVE SUMMARY ......................................................................................................... iii


BACKGROUND ............................................................................................................................1


PURPOSE AND METHODOLOGY ...........................................................................................2


FINDINGS AND RECOMMENDATIONS ................................................................................4

          Finding A:            DOL Needs to Implement Specific Strategies That Will Reduce
                                Motor Vehicle Petroleum Fuel Consumption ..............................................4

          Finding B:            DOL’s Motor Vehicle Fleet Can Be Utilized More Efficiently ................11


OIG RESPONSE AND AGENGY CONCLUSIONS ...............................................................16


APPENDIX

          Appendix A: Agency Response.......................................................................................19




                                                                i
                                     ACRONYMS


AFs          Alternative Fuels

AFVs         Alternative Fuel Vehicles

AMD          Average Miles Driven

DLMS         Department of Labor Manual Series

DOE          Department of Energy

DOL          Department of Labor

E.O. 13149   Executive Order 13149

EPA          Environmental Protection Agency

ESA          Employment Standards Administration

ETA          Employment and Training Administration

FY           Fiscal Year

GSA          General Services Administration

MPG          Mile Per Gallon

MSHA         Mine Safety and Health Administration

OASAM        Office of the Assistant Secretary for Administration and Management

OSHA         Occupational Safety and Health Administration

POV          Privately Owned Vehicle




                                         ii
                               EXECUTIVE SUMMARY

At the request of the Office of the Assistant Secretary for Administration and
Management (OASAM), we conducted an evaluation of the Department of Labor’s
(DOL) motor vehicle fleet program to determine whether the vehicles are cost effective
and necessary to the Department’s mission. OASAM develops policy and provides
leadership, technical direction, guidance, and assistance in administering DOL’s motor
vehicle fleet program.

Motor vehicles are an integral tool for DOL in meeting its mission. With the size,
complexity and cost of a federal fleet, it is imperative that it be utilized and managed as
effectively and efficiently as possible.

Executive Order 13149, issued April 21, 2000, directs federal agencies to reduce
petroleum fuel consumption by 20 percent by fiscal year (FY) 2005 through
improvements in fleet fuel efficiency and the use of alternative fuel vehicles (AFVs) and
alternative fuels (AFs). DOL’s compliance strategy for reducing petroleum consumption
was submitted to the Department of Energy (DOE) in October 2000 and was ultimately
rejected for lack of specific action items to achieve stated goals.

 RESULTS OF EVALUATION

Analysis of the information and data we gathered, along with our interviews, revealed
that DOL has a great opportunity for savings if it better manages its motor vehicle fleet
and encourages use of AFVs and AFs. We identified specific areas where OASAM
should conduct further analysis, and where specific action plans should be developed,
implemented and monitored. Those areas are identified below.

FINDING A: DOL Needs to Implement Strategies That Will Reduce Motor Vehicle
           Petroleum Fuel Consumption

DOL needs to develop a strategy that will emphasize (1) improved fuel efficiency and
(2) greater use of alternative fuel vehicles and alternative fuels. This strategy should
conform to the requirements set forth in Executive Order 13149 (E.O.13149) directing
federal agencies to reduce petroleum fuel consumption by 20 percent by FY 2005.
Further, additional administrative oversight is needed to ensure continued compliance
with reductions in petroleum fuel consumption within DOL’s motor vehicle fleet.

DOL could substantially meet petroleum reduction targets by acquiring motor vehicles
with higher fuel efficiency ratings. OASAM should develop a strategy for increasing the
percentage of “fuel economy leaders” in popular vehicle classes in the DOL motor
vehicle fleet.

Our analysis revealed that a total of 298 vehicles in the total passenger fleet of 3,609 are
“fuel economy leaders.” This represents only 8.3% of the entire fleet. In addition, the

                                             iii
most efficient vehicles are either pickups or vans. No passenger sedans, compacts, or
sub-compacts met the fuel economy leader criteria, with one possible caveat. The
Plymouth Breeze is listed as a fuel economy leader, but only in the case of manual
transmission vehicles. However, even assuming that all 326 of these vehicles possess
manual transmissions, only 17.3% of the fleet can be classified as highly fuel-efficient.
DOL needs to identify which vehicles they consider to be in line for replacement based
on the level of their current fuel efficiency.

Finally, DOL needs to increase the acquisition and usage of AFVs. While the number of
AFVs in the DOL fleet has increased substantially over the past five years, DOL is not in
compliance with the Energy Policy Act of 1992 which requires that 75 percent of new
vehicle acquisitions (beginning in FY 2000) be comprised of AFVs, and E.O. 13149
which requires that by FY 2005 a majority of the fuel consumed by AFVs be in the form
of alternative fuel.

FINDING B: DOL’s Motor Vehicle Fleet Can Be Utilized More Efficiently

We found that a majority of DOL’s motor vehicle fleet is driven less than 800 miles per
month, creating unnecessary costs for DOL. We calculated that DOL could recognize
cost savings of up to $2.5 million annually by eliminating underutilized vehicles from the
existing motor vehicle fleet.

DOL’s motor vehicle fleet is comprised of over 4,000 vehicles; 3,609 of these are light-
duty passenger vehicles. With a nationwide fleet of this size, managing with efficiency
has direct consequences on the costs associated with operating the fleet. DOL should
develop a plan for reducing the size of the fleet through removal of the least efficiently
utilized vehicles.

RECOMMENDATIONS

We recommend that OASAM take the following actions to improve the utilization,
effectiveness and oversight of DOL’s motor vehicle fleet:

(1) Develop, implement and monitor an improved compliance strategy in order to meet
    the requirements of Executive Order 13149 within the prescribed time frames. DOL
    should follow the sample guidance provided by DOE and review plans approved by
    DOE to identify best practices and common barriers to compliance. We recommend
    a strategy that specifically emphasizes the three-pronged approach to reducing fuel
    consumption, in this order:

       a) Better utilization of existing fleet.

       b) More emphasis on the use of fuel-efficient vehicles.

       c) Increase the use of AFVs and AFs.




                                             iv
(2) Develop and implement a specific action plan to replace the least fuel-efficient
    vehicles in the DOL passenger fleet with DOE/EPA “fuel economy leaders.”

(3) Develop and implement a plan for additional purchase of AFVs in those regions
    where AFs are available.

(4) Realign AFVs to areas that have existing infrastructure.

(5) Implement a specific action plan for installing AFV refueling equipment or obtaining
    access to AFV fueling points.

(6) Implement a tracking system to monitor the use of alternative fuels in Dual Fuel
    vehicles.

(7) Develop and implement a comprehensive education program that emphasizes the
    benefits of AFVs, AF use and principles of effective fleet management.

(8) Develop and implement a coordinated oversight function that will ensure agencies’
    acquisition requests comport with DOL’s compliance strategy.

(9) Develop and implement a specific action plan to reduce the size of the existing fleet,
    based on utilization figures.


 OASAM’S RESPONSE AND OIG CONCLUSIONS

OASAM and DOL agencies agree, “that most of the recommendations are workable,
given some practical limitations and mission requirements.”

Based on OASAM’s response, we consider all recommendations resolved. The
recommendations will be closed pending OIG’s receipt of appropriate documentation
specified in the report.

The agency’s complete response is found in the Appendix.




                                             v
                                   BACKGROUND

A presidential directive issued May 3, 2001, directed federal agencies to take appropriate
actions to conserve energy as part of a comprehensive national energy plan. In response
to the presidential directive, DOL developed an energy conservation plan that included an
evaluation of DOL’s fleet management program. In that regard, the Office of the
Assistant Secretary for Administration and Management (OASAM) proactively requested
that the Office of Inspector General conduct the fleet management evaluation.

Fleet Management Responsibilities

OASAM develops policy and provides leadership, technical direction, guidance, and
assistance in administering DOL’s motor vehicle fleet program. Responsibilities for
management of the fleet are detailed in the Department of Labor Manual Series (DLMS
2-1500). DOL program administrative officers, or their designees, are responsible for
establishing and maintaining an agency motor vehicle management program, and for
ensuring compliance with General Services Administration (GSA) and DOL policy
directives and guidelines.

DOL’s motor fleet is comprised of 4,019 vehicles, distributed across nine geographic
regions defined by GSA. Within DOL, the Mine Safety and Health Administration and
the Employment and Training Administration lease and operate the greatest number of
vehicles at 1,183 and 932 vehicles respectively.

Executive Order 13149

In addition to the presidential directive mentioned above, Executive Order 13149, issued
April 21, 2000, directs federal agencies to reduce petroleum fuel consumption by 20
percent by fiscal year 2005 through improvements in fleet fuel efficiency and the use of
alternative fuel vehicles and alternative fuels. DOL’s compliance strategy for reducing
petroleum consumption was submitted to the Department of Energy in October 2000 and
was ultimately rejected for lack of specific action items to achieve stated goals.




                                            1
                          PURPOSE AND METHODOLOGY

 PURPOSE

The purpose of this evaluation is to examine DOL’s motor vehicle fleet program to
determine whether the vehicles are cost effective and necessary to the Department’s
mission. In addition to the number and deployment of the vehicles, the review is also to
evaluate the feasibility of replacing vehicles with more fuel-efficient models, including
alternative fuel vehicles.


 METHODOLOGY

To meet the objectives of this review, we utilized a variety of quantitative and qualitative
analytical methods.

Quantitative Methods

OASAM provided data pertaining to the DOL motor vehicle fleet for the year 2000. We
did not independently verify the data; however, OASAM officials informed us that the
data was requested from GSA and was used as the official record of fleet activity. We
analyzed all data that was necessary and sufficient to characterize the DOL passenger
fleet.

The primary manipulations performed on the data were descriptive in nature (such as
summary statistics and frequency counts). This type of analysis permitted us to
effectively characterize the composition of the current fleet. We examined a number of
descriptive statistics relating to the data, such as distribution of vehicles according to
geographic region, frequency counts of fuel capabilities and average number of miles
driven per month, and summary information regarding vehicle lease cost.

In addition, we utilized the data to derive estimates of cost savings based on reducing the
size of the motor vehicle fleet. The calculations to compute cost savings are described in
detail in the body of the evaluation. All information required to replicate this analysis
may be obtained from the Office of Inspector General, Office of Communications,
Inspections, and Evaluations, Division of Program Evaluations.

Qualitative Methods

As part of our evaluation, we interviewed 12 of 15 DOL agency fleet managers. Also,
we interviewed officials from OASAM’s Business Operations Center, the Departments of
Interior and Energy, as well as officials from the General Services Administration’s
Division of Vehicle Fleet Policy and Division of Vehicle Acquisition. In addition, we
conducted phone interviews with a number of randomly selected regional fleet managers,
who represented a cross-section of DOL agencies and regions.


                                             2
We conducted our review in accordance with the Quality Standards for Inspections
published by the President’s Council on Integrity and Efficiency.




                                          3
                 FINDINGS AND RECOMMENDATIONS

 FINDING A:         DOL Needs to Implement Strategies that will Reduce
                    Motor Vehicle Petroleum Fuel Consumption

The Department of Labor (DOL) needs to develop a strategy that will emphasize
improved fuel efficiency and greater use of alternative fuel vehicles and alternative fuels.
This strategy should conform to the requirements set forth in Executive Order 13149
(E.O.13149) directing federal agencies to reduce petroleum fuel consumption by 20
percent by fiscal year (FY) 2005. Further, additional administrative oversight is needed
to ensure continued compliance with reductions in petroleum fuel consumption within
DOL’s motor vehicle fleet.

Executive Order 13149

On April 21, 2000, Executive Order 13149, Greening the Government through Federal
Fleet and Transportation Efficiency, was enacted. The purpose of the order is to ensure
that the federal government exercises leadership in the reduction of petroleum
consumption through improvements in fleet fuel efficiency and the use of alternative fuel
vehicles (AFVs) and alternative fuels. Reduced petroleum use and the displacement of
petroleum by alternative fuels will help promote markets for more alternative fuels and
fuel efficient vehicles, encourage new technologies, enhance the United States’ energy
self-sufficiency and security, and ensure a healthier environment through the reduction of
greenhouse gases and other pollutants in the atmosphere.

Agencies have numerous options for developing a strategy to meet the petroleum
reduction levels established in the order. Measures include: the use of alternative fuels in
light, medium, and heavy-duty vehicles; the acquisition of vehicles with higher fuel
economy, including hybrid vehicles; the substitution of cars for light trucks; an increase
in vehicle load factors; a decrease in vehicle miles traveled; and a decrease in fleet size.
Agencies should have a strategy that includes most, if not all, of these measures, but
should develop a strategy that fits its unique fleet configuration and mission
requirements. Where feasible, agencies should also consider procurement of innovative
vehicles, such as hybrid electric vehicles, capable of large improvements in fuel
economy. Agencies should also attempt to minimize costs in achieving the objectives of
the order. Although agencies are allowed flexibility in selecting the methods used to
reach the petroleum-reduction goal, each strategy must consider the following:

   (a) AFV acquisition and use of Alternative Fuels (AFs). Each agency must fulfill the
       acquisition requirements for AFVs established by section 303 of the Energy
       Policy Act of 1992. Agencies shall use alternative fuels to meet a majority of the
       fuel requirements of those motor vehicles by the end of FY 2005; and

   (b) Acquisition of Higher Fuel Economy Vehicles. Agencies shall increase the
       average Environmental Protection Agency (EPA) fuel economy rating of


                                             4
       passenger cars and light trucks acquired by at least 1 mile per gallon (mpg) by the
       end of FY 2002 and at least 3 mpg by the end of FY 2005 compared to FY 1999
       acquisitions.

Each agency operating 20 or more motor vehicles within the United States shall reduce
its entire vehicle fleet’s annual petroleum consumption by at least 20 percent by the end
of FY 2005, compared with FY 1999 petroleum consumption levels.

DOE is responsible for reviewing and evaluating agency strategies. Additionally, it is
responsible for issuing guidance to agencies on preparation and submission of agency
strategies and the collection and annual reporting of data to demonstrate compliance with
this order.

DOE Rejected DOL’s Petroleum Consumption Reduction (Compliance) Strategy

In October 2000, OASAM submitted DOL’s compliance strategy for reducing petroleum
consumption. DOE rejected DOL’s petroleum consumption reduction strategy because
the strategy lacked specific action items to achieve stated goals. In order to gain approval
from DOE, OASAM needs to revise its compliance strategy to include specific action
items that will contribute to reductions in petroleum consumption. Further, in crafting an
improved strategy, DOL would benefit from following the sample guidance provided by
DOE. Additionally, DOL should review plans approved by DOE to identify best
practices and common barriers to compliance.

DOL’s Compliance Strategy

DOL’s compliance strategy should emphasize improved fuel efficiency and greater use of
alternative fuel vehicles and alternative fuels.

1.   DOL Needs to Acquire More Fuel Efficient Vehicles

DOL could substantially meet petroleum reduction targets by acquiring motor vehicles
with higher fuel efficiency ratings. To this end, OASAM should develop a strategy for
increasing the percentage of “fuel economy leaders” in popular vehicle classes in the
DOL motor vehicle fleet.

Our analysis found that a total of 298 vehicles in the passenger fleet are “fuel economy
leaders.” This represents only 8.3% of the entire fleet. In addition, the most efficient
vehicles are either pickups or vans. Included among these are: 32 Ford Astro vans, 216
Chevy Caravans, 15 Ford Rangers, and 28 Chevy S-10 pickups. No passenger vehicles
met the fuel economy criteria, with one possible caveat. The Plymouth Breeze is listed as
a fuel efficiency leader, but only in the case of manual transmission vehicles. The DOL
fleet includes 326 Plymouth Breezes, but our data does not include information on
transmission types. However, even assuming that all these vehicles possess manual
transmissions, only 17.3% of the fleet can be classified as highly fuel-efficient.




                                             5
According to both the GSA and DOE, acquiring vehicles with higher fuel efficiency
ratings is an excellent strategy to help achieve the goals of E.O. 13149. DOL proposed to
reduce petroleum-based product consumption by obtaining more fuel-efficient vehicles
and disposing of less fuel-efficient vehicles, but no specific plan was developed to
accomplish these goals. DOL’s plan did not identify which vehicles they consider to be
in line for replacement based on the level of their current fuel efficiency.

Each year, DOE publishes the Model Year Fuel Economy Guide. This document
categorizes vehicles by make, model, transmission and engine, providing the average fuel
economy for each vehicle. In addition, the guide highlights the “fuel economy leaders”
in each of the vehicle classes for each year.

2.    DOL Needs to Develop a Strategy That Will Increase the Use of Alternative Fuel
      Vehicles and Alternative Fuels

Over the past five years, the number of AFVs in the DOL fleet has increased
substantially. However, the Energy Policy Act of 1992 requires that 75% of new vehicle
acquisitions (beginning in FY 2000) be comprised of AFVs, and E.O. 13149 requires that
by FY 2005, a majority of the fuel consumed by AFVs be in the form of alternative fuel.
To meet these targets, DOL needs to increase the acquisition and usage of AFVs.
Additionally, DOL should improve education efforts regarding AFVs and the use of
alternative fuels.

As part of its compliance strategy, DOL stated it would increase the use of AFVs and
AFs by:

     a)   continuing to acquire AFVs as replacement vehicles,
     b)   identifying alternative fuel sources within the existing infrastructure,
     c)   realigning AFVs to areas that have an existing AFV infrastructure, and
     d)   installing AFV refueling equipment.

However, the specific strategies to achieve these goals were not detailed in DOL’s
compliance plan rejected by DOE.

AFV acquisition needs

DOL’s compliance strategy did not provide specific target numbers for AFV
replacements, which must be included in the compliance plan for DOE approval. In
order to adequately identify the targets of its AFV acquisition, DOL should
systematically analyze its AFV acquisition capability including incremental cost to
budget, DOL program agency needs, and vehicle availability.

Currently, the DOL passenger fleet contains 454 AFVs, which corresponds to 12.6% of
the total passenger fleet. Over the past five years, the proportion of AFVs in the DOL
motor vehicle fleet has increased substantially. Among the 334 fleet vehicles of a 1997
model year, only 14 (4.2%) are AFVs. However, among 2001 model year vehicles, there



                                               6
are 132 AFVs in the fleet (17.9%). Based on this, OASAM has made a substantial effort
toward acquiring AFVs for the passenger fleet. However, this acquisition still falls
significantly short of the 75% goal.

Current AFVs are underutilized

Currently, many of the AFVs in the passenger fleet are underutilized. Seventy-five AFVs
in the vehicle fleet are driven less than 300 miles per month, representing 16.5% of all
AFVs in the fleet. Further, of the 454 AFVs in the passenger fleet, 239 (52.6%) are
driven less than 1,000 miles per month. While no standards exist to determine specific
underutilization, based on the GSA rule-of-thumb of 800-1,000 miles per month, we
found a disproportionate number of AFVs are underutilized.

Tracking of alternative fuel usage in dual fuel vehicles

Use of AFs in Dual Fuel vehicles (vehicles that can run on both petroleum and various
alternative fuels) is not tracked. GSA usually compiles fuel consumption data through
the use of fleet vehicle fuel credit cards. However, the data collected indicates the cost
and amount of fuel used and not whether the fuel was petroleum or alternative. GSA is in
the process of addressing the problems with fuel card data. Until GSA addresses the
problem, agencies should track information on the type of fuel used in dual fuel vehicles
at every fueling. DOL should implement a tracking system to ensure that AFs are used in
Dual Fuel vehicles, where available.

The fueling and service infrastructure for AFVs is limited

DOL, GSA and DOE all agree that a limited AFV infrastructure exists nationally.
Nevertheless, GSA and DOE maintain that federal fleet managers are not thoroughly
scanning the existing AFV infrastructure to identify resources that may be readily
available in both the public and government sectors. OASAM, to its credit, has identified
some AFV refueling and service points. However, OASAM’s identification of AFV
refueling and service points is not systematic and recurrent in nature.

Distribution of AFVs in the fleet is also problematic. Currently, 243 DOL fleet vehicles
are located in cities (or metropolitan areas) with alternative fuel refilling stations.
However, of these 243 fleet vehicles, only 54 are AFVs. In fact, only 11.9% of the AFVs
in the DOL motor vehicle fleet are located in cities where they can be fueled with
alternative fuel.

Given this disparity DOL should thoroughly analyze the possibility of realigning AFVs to
areas that have an infrastructure already in place. For example, the State Department
focused its strategy on its largest covered fleet in the Washington, D.C. area. The local
infrastructure for AFVs includes a readily available supply of compressed natural gas,
ethanol, and bio-diesel fuels. While the composition of each agency fleet is unique,
DOL’s compliance strategy needs to identify innovative and practical approaches similar
to those used by other agencies that have been approved by DOE.



                                             7
In addition to realigning AFVs to areas that have an infrastructure already in place, DOL
should consider installing AFV refueling equipment. Further, DOL may choose to enter
into a Memorandum of Understanding or contract with any entity that could install or
make available AFV refueling equipment. According to OASAM officials, no discussion
has taken place to determine the structural or budgetary feasibility of installing AFV
refueling equipment. As a guide, DOL may utilize the Department of Defense and the
Environmental Protection Agency’s compliance strategies that specifically addressed
investing in AFV infrastructure for reducing motor vehicle petroleum fuel consumption.

Additional Administrative Oversight of DOL’s Vehicle Fleet is Needed

While OASAM is fulfilling some of it’s oversight responsibilities, there are additional
steps that can be taken to strengthen the fleet management program. OASAM needs to:
(1) monitor vehicle acquisitions to ensure compliance with overall DOL motor vehicle
petroleum fuel consumption strategy, (2) monitor on a regular basis agencies progress
towards meeting vehicle mileage utilization standards, and (3) provide additional
education and training to DOL agency fleet managers and those responsible for fleet
vehicles.

1.   Oversight of Vehicle Acquisitions

Currently, DOL components vested with oversight responsibility for vehicle acquisitions,
including AFVs, are fragmented among the various DOL agencies. DOL agency
administrators and regional fleet manager acquire vehicles directly from GSA with little
or no guidance from OASAM. As a result OASAM has no system to determine whether
the acquisitions match DOL’s fuel consumption reduction plan.

There are two areas where increased oversight of vehicle acquisitions will have a
significant impact on improving overall fleet management. First, increased oversight
over the fuel efficiency of vehicles DOL agencies acquire (including AFVs) will ensure
replacement vehicles match DOL’s strategy to reduce petroleum consumption and
increase fuel efficiency. Second, increased vehicle acquisition oversight needs to be an
integral part of an agencies’ compliance strategy for E.O. 13149, according to DOE.

Other federal agencies, with compliance plans that have been approved by DOE, have
implemented heightened oversight responsibilities to fleet managers. For example the
Department of State’s compliance strategy assigned increased oversight to the agency
components that would ensure “fleet managers will be ‘held accountable’ for meeting…”
the goals of their AFV acquisitions and efficient fleet management. DOL needs to
implement a coordinated oversight function that will ensure agencies’ vehicle
acquisitions comport with DOL’s compliance strategy.

OASAM has not systematically consulted with agency officials about the most effective
methods to meet the requirements of E.O. 13149. OASAM officials point out that DOE
has not approved the DOL compliance strategy for E.O. 13149 and until approval is



                                            8
granted they cannot give guidance to agencies concerning compliance. However,
OASAM should encourage agencies to demonstrate their compliance with the general
mandates of E.O. 13149.

2.   Meeting Vehicle Utilization Mileage Standards

OASAM is responsible for managing and accounting for government owned or leased
vehicles and ensuring that fleet management policies and procedure are consistent with
good management principles and current regulatory requirements. To ensure that DOL’s
vehicle fleet meets their vehicle utilization efficiency goals, it is imperative that OASAM
increase the level of oversight provided to DOL agencies.

Currently, agency administrative officers are provided updates and directives pertaining
to fleet management from OASAM; however, there is no follow up to monitor
compliance. There is no assurance that the oversight provided by the administrative
officers is the most efficient and effective means of achieving the overall goal of uniform
fleet governance. As a remedy, OASAM needs to develop guidelines and goals for
agency administrators regarding fleet management oversight.

3.   Fleet Management Education

OASAM can be more proactive in educating agency fleet managers on effective fleet
management principles. Agency fleet managers and those responsible for fleet vehicles
rely on training from GSA on the basics of fleet management and periodic fleet policy
directives from OASAM to stay current on fleet management issues. Currently, any
education or training that is provided by OASAM is informal and infrequent. OASAM
officials confirmed that their primary role in educating agency fleet managers is
disseminating fleet policy directives and issuing an annual report on fleet usage.
However, OASAM should provide agency fleet managers and those responsible for fleet
vehicles with a comprehensive education program that outlines principles of effective
fleet management. We believe that a more proactive approach to educating fleet
managers about effective fleet management will only enhance DOL’s oversight of the
vehicle fleet.




                                [Intentionally Left Blank]




                                             9
RECOMMENDATIONS

We recommend that OASAM:

  1) Develop, implement and monitor an improved compliance strategy in order
     to meet the requirements of Executive Order 13149 within the prescribed
     time frames. DOL should follow the sample guidance provided by DOE and
     review plans approved by DOE to identify best practices and common
     barriers to compliance. We recommend a strategy that specifically
     emphasizes the three-pronged approach to reducing fuel consumption, in this
     order:

        1. Better utilization of existing fleet.

        2. More emphasis on the use of fuel-efficient vehicles.

        3. Increase the use of Alternative Fuel Vehicles and Alternative Fuels.

  2) Develop and implement a specific action plan to replace the least fuel-
     efficient vehicles in the DOL passenger fleet with DOE/EPA “fuel economy
     leaders.”

  3) Develop and implement a plan for additional purchase of AFVs in those
     regions where AFs are available.

  4) Realign AFVs to areas that have existing infrastructure.

  5) Implement a specific action plan for installing AFV refueling equipment or
     obtaining access to AFV fueling points.

  6) Implement a tracking system to monitor the use of alternative fuels in Dual
     Fuel vehicles.

  7) Develop and implement a comprehensive education program that emphasizes
     the benefits of AFVs, AF use and principles of effective fleet management.

  8) Develop and implement a coordinated oversight function that will ensure
     agencies’ acquisition request comport with DOL’s compliance strategy.




                                        10
 FINDING B:        DOL’s Motor Vehicle Fleet Can Be Utilized More Efficiently

A majority of DOL’s motor vehicle fleet is driven less than 800 miles per month creating
unnecessary costs for DOL. We calculated that DOL could recognize cost savings of up
to $2.5 million annually by eliminating underutilized vehicles from the existing motor
vehicle fleet.

DOL’s motor vehicle fleet is comprised of over 4,000 vehicles; 3,600 of these are light-
duty passenger vehicles. With a nationwide fleet of this size, managing with efficiency
has direct consequences on the costs associated with operating the fleet. DOL should
develop a plan for reducing the size of the fleet through removal of the least efficiently
utilized vehicles.

General Fleet Characteristics

The 4,019 vehicles that make up DOL’s motor fleet include both heavy-duty and light-
duty vehicles. Included in the heavy-duty classification are buses, heavy machinery such
as dump trucks, and other vehicles such as refrigerated trucks and heavy-duty moving
trucks. These vehicles were excluded from our analysis.

The light-duty vehicles include all passenger sedans, sport/utility vehicles, pickups, and
passenger vans. These vehicles are utilized in day-to-day operations of DOL. The
number of these vehicles in the fleet is 3,609; this was the number of vehicles used in the
bulk of our analysis.

MSHA and ETA lease and operate the greatest number of vehicles. Nationwide, MSHA
operates 1,183 vehicles; this represents 32.8% of the entire passenger fleet. ETA
operates 932 vehicles (25.8%); OSHA maintains 359 (9.9%); DOL controls 299 vehicles
(8.3%), and Federal contractors or private subcontractors operate 291 vehicles (8.1%).
These five agencies/entities maintain 85% of the vehicles leased by the Department.

According to vehicle type, the fleet is composed of 1,575 sedans (44.0%), 953 vans
(26.6%), 714 sport/utility vehicles (19.9%), and 338 pickups (9.4%). Additionally, 454
vehicles in the fleet (12.6%) are classified as AFVs. Among AFVs, 431 are
ethanol/unleaded vehicles and 23 are compressed natural gas/unleaded vehicles.

Utilization of Motor Vehicle Fleet

While the characteristics of the motor vehicle fleet discussed above assist in
demonstrating the diversity of the overall fleet, our analysis focused on the efficiency of
fleet utilization. This area encompasses two issues. First, how are the vehicles in the
passenger fleet utilized (based on the number of miles driven)? Second, when comparing
vehicle costs to the number of miles driven, are vehicles in the fleet cost effective?




                                            11
GSA does not require vehicles to be driven a minimum number of miles per month.
However, interviews with GSA officials indicated that 800-1,000 miles per month is
generally accepted as full utilization of a vehicle. This would translate to 9,000-12,000
miles per year. As shown in the following table, approximately 52 percent (or 1,877
vehicles) of the DOL motor vehicle fleet is driven less than 800 miles per month.

                   Table 1.

                                                 Department of Labor
                                       # Vehicles          Yearly Savings
                                                       (Based on reported data)

                Average Miles
               Driven per Month

          200 miles or less                425               $943,848.12
          201 - 300 miles                  180               $330,375.55
          301 - 400 miles                  196               $280,220.70
          401 - 500 miles                  262               $303,387.89
          501 - 600 miles                  267               $263,258.26
          601 - 700 miles                  301               $253,022.32
          701 - 800 miles                 246               $148,083.54
                    Total                1,877             $2,522,196.38


As shown by the table above, 547 vehicles (or15.2%) are driven at least 601 miles per
month. These vehicles may be underutilized depending on the purpose for which they
are used. For example, a passenger sedan could possibly be classified as underutilized at
600 miles per month, whereas a cargo van may be fully utilized at the same mileage. An
additional 529 vehicles are used between 401-600 miles per month; this represents
14.7%.

Of the remaining vehicles, 376 (10.4%) are used between 201 and 400 miles per month.
The least utilized vehicles, those driven fewer than 200 miles per month, number 425. Of
this 425, the average number of miles driven per month is 110.32. Additionally, sedans
comprise 45.6% (188 vehicles) of the most underutilized; sport/utility vehicles (22) make
up 5.3%, while vans (92) and pickups (110) comprise 22.3% and 26.7% respectively.

Overall, eliminating those vehicles driven 800 miles or less would produce a yearly
savings for the Department of up to $2.5 million. We must note that this is most likely a
conservative estimate given the omission of fuel and maintenance costs. Additionally,
we considered the costs that would be incurred by the Department should a vehicle be


                                            12
eliminated, thereby requiring the use of a privately owned vehicle (POV) (at the rate of
34.4 cent per mile). The analysis compared these costs to the average number of miles
per month each vehicle is driven. Assuming a vehicle was removed from the fleet, a cost
savings per month can be computed by subtracting the POV costs from the overall costs.

The following chart depicts the 1,877 underutilized vehicles by DOL Agency. As shown,
approximately 31%of the underutilized vehicles are located in MSHA; 24% in ETA; 13%
in OSHA; 6% in ESA; with the remaining 26% distributed throughout other components
within DOL.

                            Underutilized Vehicles by Agency


                                                                     MSHA (31%)



                ETA (24%)                                    586

                                  452



                                                                   206
                                    242
                                                             121
                                                145    125                      Other (11%)


                 OSHA (13%)
                                                                         ESA (6%)

                     Department of Labor (8%)                Subcontractors (7%)




According to DLMS 2-1564, DOL agencies should terminate vehicles when they are
driven less than the “average miles driven (AMD)” standard for the vehicle class in a
respective Region, unless other significant factors justify retention. AMD is calculated
by dividing the total number of miles driven by all of a given class of vehicles within a
region during a three-month reporting period, by the total number of vehicles of a given
class assigned to a region. However, neither GSA nor OASAM collects the quarterly
information required for AMD calculation. As a proxy measure, we utilized the average
monthly miles driven for the entire class of vehicles. For example, in GSA Region 10 we
examined all vehicles classified as sedans. The average monthly miles driven were
810.44.

As illustrated by Table 2, in GSA Region 10 we examined 43 vehicles classified as
sedans; 20 vehicles (46.5%) were driven less than the proxy AMD standard for the
vehicle class in the region. Further, we have found no evidence that OASAM has
efficiently terminated vehicles using this standard.




                                                  13
              Table 2.
                              DOL Region 10
              Forty-Three Total Passenger Sedans and Compacts

                          Average Miles             # Vehicles
                         Driven per Month

                         200 miles or less               4
                         201 - 300 miles                 1
                         301 - 400 miles                 3
                         401 - 500 miles                 2
                         501 - 600 miles                 5
                         601 - 700 miles                 3
                         701 - 800 miles                2
                            Total                       20

Summary

Based on this cost effectiveness analysis, reductions in the size of the DOL motor vehicle
fleet would reap significant cost savings for the Department. However, as noted
previously, this analysis does not account for intangible aspects of utilization such as the
tasks performed by vehicles. Taking these factors into consideration may change a
vehicle's categorization as “underutilized.” Nevertheless, some reduction in fleet size
seems warranted based on this analysis.

Additionally, such a reduction would promote the full utilization of the remaining
vehicles. Finally, reducing the size of the fleet would make a significant difference in
DOL's ability to reach the 20% petroleum use reduction by FY 2005 as mandated by E.O.
13149.

DOL has outlined the necessary steps they need to take to utilize the vehicle fleet more
efficiently. DOL proposed to match mission requirements to the most efficient vehicle
types by aligning mission requirements, staffing levels, and operating locations to the
number and type of vehicles authorized and employed by the agency. Missing from
DOL’s approach was a utilization assessment that would provide a snapshot of the
current state of the fleet and would help fleet managers identify opportunities to
streamline fleet size and composition. In order to realize any cost and fuel savings, DOL
needs to implement a strategy that will achieve matches between the most efficient
vehicle type and a specific DOL mission. This type of specific analysis needs to be
conducted before DOL can move from the development stages of their strategy to actual
implementation.



                                             14
RECOMMENDATION

  9) DOL should develop and implement a specific action plan to
     reduce the size of the existing fleet, based on utilization figures.




                                        15
                    OASAM’s Response and OIG Conclusions

The purpose of our recommendations is to improve the utilization, effectiveness and
oversight of DOL’s motor vehicle fleet.

OASAM’s Response:

OASAM and DOL agencies agree:

“[T]hat most of the recommendations are workable, given some practical limitations and
mission requirements.

“Recommendations offered in the draft report and requirements of the EO will be used as
the basis to develop individual agency strategic plans. These plans will outline long and
short-range methods to achieve the fuel reduction targets while considering unique
agency specific fleet usage requirements. We will also work with the agencies to develop
strategies for more efficient use of the DOL fleet.

“Agency strategic plans will be incorporated into an overall Departmental strategic plan
that will be submitted to the Department of Energy (DOE) for approval. Upon
submission, agencies will implement their respective elements of the plan OASAM will
provide Departmental oversight and educate fleet managers on effective policies and
practices.”

OIG’s Conclusion

We consider these recommendations resolved. The recommendations will be closed
upon receipt of the following:

   •   A draft copy of DOL’s strategic energy plan, for comment, as soon as it is
       available, but before it is submitted to DOE.

   •   A copy of a specific action plan detailing how DOL will reduce petroleum fuel
       consumption by 20% by 2005 as mandated by Executive Order 13149. Please
       provide a copy of the specific action plan no later than July 31, 2002.

   •   A copy of a specific action plan detailing how DOL will realign current fleet
       AFVs and purchase additional AFVs in regions where AFs are available. Please
       provide a copy of the specific action plan no later than July 31, 2002.

   •   A copy of a specific action plan detailing how DOL will install or obtain access to
       AFV refueling equipment and fueling points. Please provide a copy of the
       specific action plan no later than July 31, 2002.




                                           16
•   A status report detailing the progress DOL is making in implementing a tracking
    system to monitor the use of alternative fuels if Dual Fuel vehicles. Please
    provide a copy of the status report no later than May 31, 2002.

•   Information pertaining to the training and education provided to fleet managers,
    including: a copy of any training materials, the date of proposed implementation,
    and information on how OASAM will ensure that appropriate personnel are
    covered in the training. The documentation should be provided as soon as the
    training is prepared, but no later than May 31, 2002.

•   A copy of a specific action plan detailing how DOL will develop and implement a
    coordinated oversight function that will ensure agencies’ acquisition request
    comport with DOL’s strategic energy plan. Please provide a copy of the specific
    action plan no later than August 31, 2002.




                                        17
  APPENDIX
Agency Response




         18
